FY 2011 OFFICE OF INSPECTOR GENERAL
 FISMA AUDIT OF GSA’S INFORMATION
  TECHNOLOGY SECURITY PROGRAM
  REPORT NUMBER A110160/O/F/F11008

          September 28, 2011
Date:         September 28, 2011

To:           Casey Coleman
              Chief Information Officer (I)

Reply to      Carolyn Presley-Doss
Attn of:      Deputy Assistant Inspector General for Finance and Information Technology
              Audits (JA-F)

Subject:      FY 2011 Office of Inspector General FISMA Audit of GSA’s Information
              Technology Security Program, Report Number A110160/O/F/F11008

The General Services Administration’s (GSA’s) Information Technology (IT) Security Program
provides guidance and conducts oversight of efforts to protect GSA systems. The Federal
Information Security Management Act of 2002 (FISMA) directs Inspectors General (IGs) to
perform an annual independent evaluation of their respective Agency’s information technology
security program and controls for select systems. This audit report presents the results of the
Office of Inspector General’s fiscal year (FY) 2011 audit of GSA’s IT Security Program and
reflects results from three system security audits conducted during the year and other tests.
Appendix A provides the objective, scope, and methodology for the audit.

According to FISMA, the Office of Management and Budget (OMB) is responsible for
summarizing the results of agency evaluations in a report to Congress. For FY 2011 reporting,
IGs are required to assess Agency information security performance in key areas, including risk
management, configuration management, security training, incident response and reporting, and
identity and access management.

                                   RESULTS OF AUDIT

GSA’s Chief Information Officer (GSA-CIO) continues to take steps to improve the Agency-
wide IT Security Program. For example, the GSA-CIO has updated GSA’s IT Security Policy,
published procedural guidance on a variety of information security topics, and expanded the IT
Security Program to include additional technical testing requirements. However, we found that
additional steps are needed to strengthen GSA’s IT Security Program in five key areas: (1)
configuration management, (2) social media technologies, (3) security documentation labeling,
(4) contractor background investigations, and (5) warning banners.
Further Expansion of Technical Testing Processes Could Improve Configuration
Management

Continued improvements are needed to better secure GSA systems and data. In particular, in the
two systems that we were able to test, 1 we identified weaknesses relating to security
misconfigurations and unpatched database or operating system software. As a result, these
systems and their sensitive data were placed at an increased risk of inappropriate access,
modification, or destruction.

Weaknesses occurred because system security officials did not ensure that GSA’s IT Security
Policy requirements for baseline configuration were initially applied and maintained with enough
rigor. Additionally, GSA does not require authenticated operating system testing. Our
authenticated operating system testing identified multiple weaknesses. Finally, language in
GSA’s IT Security Policy conflicts with other GSA guidance, which outlines management’s IT
security responsibilities regarding technical testing frequency requirements. For one of the
systems, GSA officials did not conduct quarterly database scanning due to the conflicting
requirements. GSA’s IT Security Policy requires all information systems to be securely
hardened and patched while in operation. National Institute of Standards and Technology
(NIST) Special Publication (SP) 800-53 2 requires organizations to configure the security settings
of IT systems to the most restrictive mode consistent with operational requirements.

Additional Oversight of GSA’s Use of Public Social Media Technologies Would Reduce Risks

GSA is implementing social media technologies to communicate with the public to meet goals
for a government that is more citizen-centered, transparent, participatory, and collaborative. We
reviewed two public GSA social media websites and identified areas needing additional
oversight and monitoring to better manage IT security risks.

The first website reviewed was a wiki 3 that was the target for spam postings. 4 These spam
postings were available for several months prior to our identification. This website was based on
the same platform as a previously identified GSA social site targeted with spam. Additionally,
the site allowed new posts to be published without prior review by GSA. Automated programs
and malicious users could post inappropriate information in the same manner. According to
NIST SP 800-44, 5 these postings “can affect the organization’s image where visitors view the

1
  We conducted technical testing for two of the three systems reviewed. We were able to fully conduct technical
testing for one system. For the second system, we were able to conduct limited technical testing, but were restricted
by the contractor providing the system from performing authenticated operating system testing. For the third
system, we were unable to perform any technical testing due to restrictions placed upon us by the contractor
providing the system.
2
  NIST SP 800-53, Recommended Security Controls for Federal Information Systems, Rev. 3, August 2009
3
  A wiki is a piece of server software that allows users to freely create and edit web page content using any web
browser. A wiki supports hyperlinks and has a simple text syntax for creating new pages and crosslinks between
internal pages on the fly.
4
  Spam postings are unsolicited bulk messages that often contain malware. Malware refers to a program that is
inserted into a system, usually covertly, with the intent of compromising the confidentiality, integrity, or availability
of the victim’s data, applications, or operating system.
5
  NIST SP 800-44, Guidelines on Securing Public Web Servers, Version 2, September 2007

                                                           2
submitted content as an endorsement. They may also affect the Web site’s availability by
making it difficult for users to find necessary content.” GSA’s social media guidance requires
website administrators to “review all comments before posting them.” Lack of consistent and
scheduled reviews of GSA’s public sites may lead to late discoveries of such issues, which may
cause reputation and data loss. Further, while this site was included as part of the quarterly
reviews of social media websites conducted by the GSA-OCIO, these reviews were not rigorous
enough to discover the spam postings.

The second website review identified a configuration weakness that placed the confidentiality of
users’ private communications at risk. This occurred because system officials did not follow
GSA’s guidance for web application security. Additionally, this site was not included in the
GSA-OCIO’s quarterly reviews of social media websites.

A common cause of the identified problems was that both GSA’s social media guidance and
GSA’s IT security guidance do not address security risks to social media platforms. For
example, NIST SP 800-44 identifies methods for controlling the impact of spambots 6 in web
applications. Additionally, GSA’s IT security guidance and social media guidance do not
reference each other.

Additional Guidance for Labeling Security Documentation Would Reduce the Risk of
Inappropriate Disclosure

During the course of our audits, we identified sensitive documents on a public GSA website,
including IT security documentation that placed GSA systems and data at increased risk. The
documents lacked restrictive labeling, such as “Controlled Unclassified Information.” Excluding
guidance for procuring contractor systems, GSA's IT Security Policy and other guidance do not
include specific requirements for labeling security documentation for all GSA systems.
According to NIST SP 800-53, the organization must protect system security documentation, as
required. GSA determined that these documents should not have been disclosed.

Specific Guidance for Conducting Government Background Investigations for Contractors
Using Commercial Systems Would Reduce Risk

Contractor personnel supporting two of the contractor systems we reviewed had not undergone
government background investigations despite contract and GSA policy requirements. Instead,
the contractors conducted background investigations using their internal criteria that did not
include all aspects of a government background investigation. Government background
investigations are necessary to ensure that contractor personnel are suitable to access GSA
systems and data.

Government background investigations were not completed because GSA system officials did
not identify individuals requiring background investigations. Additionally, GSA lacks specific

6
  Spambots are an example of web bots which are software applications used to collect, analyze, and index web
content. More specifically, spambots crawl web sites for login forms to create free e-mail addresses from which to
send spam or to spam blogs, guestbooks, wiki, and forums to boost the search engine rankings of a particular web
site.

                                                         3
guidance to assist GSA system officials in identifying personnel requiring government
background investigations.

Enhanced Monitoring of Warning Banners Would Aid in Consistent Implementation of Policy

All three reviewed systems deviated from GSA’s IT Security Policy regarding warning banners.
Two systems displayed warning banners on their main login page that were inconsistent with
GSA requirements. The third system did not include any warning banner on its main login page.
Warning banners are important since they caution individuals with malicious intent of the
potential legal ramifications of their act. According to GSA’s IT Security Policy, all systems
must display an approved warning banner to all users attempting to access the systems. The
GSA-CIO has not provided adequate oversight to ensure appropriate warning banners are in
place.

                                  RECOMMENDATIONS

To improve GSA’s IT Security Program and to ensure the security of GSA systems, data, and
operations, we recommend that the GSA-CIO take actions to:

   1. Strengthen configuration management practices by:
          a. Ensuring that authenticated operating system testing is conducted for all GSA
              systems.
          b. Updating the GSA IT Security Policy and related guidance to clarify technical
              testing frequency requirements.
   2. Improve security of GSA’s social media technologies by:
          a. Updating GSA’s guidance, including policies, for social media and IT security to
              address risks specific to social media.
          b. Strengthening the existing reviews of GSA’s social media sites to ensure that the
              inventory is complete and the risks identified in this report are addressed.
          c. Establishing IT security standards for social media platforms widely used at GSA.
   3. Clarify labeling requirements for GSA’s sensitive security documentation.
   4. Improve personnel security of commercial systems used to provide government services
      by:
          a. Developing guidance to assist GSA system officials in identifying contractor
              personnel in positions that require government background investigations.
          b. Monitoring whether GSA system officials are adhering to this guidance.
   5. Ensure that appropriate warning banners are displayed.

                              MANAGEMENT COMMENTS

The GSA-CIO concurred with the findings and recommendations outlined in this report. A copy
of the GSA-CIO’s comments is included in its entirety in Appendix B.




                                              4
                                 INTERNAL CONTROLS

This audit included a review of elements of GSA’s IT Security Program including select
management, operational, and technical controls for three GSA systems. We did not test all
controls across GSA. The Results of Audit and Recommendations sections of this report state, in
detail, the need to strengthen specific processes and controls established within the GSA IT
Security Program.




We would like to express our thanks to the GSA-OCIO for their assistance and cooperation
during this audit. Please contact me if you have any questions regarding this report.




William Salamon
Audit Manager
Finance and Information Technology Audit Office (JA-F)




                                              5
                        FY 2011 OFFICE OF INSPECTOR GENERAL
                         FISMA AUDIT OF GSA’S INFORMATION
                          TECHNOLOGY SECURITY PROGRAM
                          REPORT NUMBER A110160/O/F/F11008

             APPENDIX A – OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine if the General Services Administration (GSA) has
developed, documented, and implemented an Agency-wide information security program. To
address this objective we:

   •   Reviewed policies, procedures, technical guides, and standards established within GSA’s
       IT Security Program.
   •   Assessed the implementation of GSA’s IT Security Program for three select GSA
       systems. For these systems, we conducted security audits to determine whether
       management, operational, and technical controls had been implemented to effectively
       manage risks.
   •   Met with GSA IT security officials in the Office of the GSA Chief Information Officer,
       Federal Acquisition Service, and Public Buildings Service.
   •   Evaluated the implementation of information security program elements from National
       Institute of Standards and Technology (NIST) Special Publication (SP) 800-100,
       Information Security Handbook: A Guide for Managers, October 2006.
   •   Applied the NIST Federal Information Processing Standards Publications and SP 800
       series security guidelines.
   •   Utilized applicable information security regulations, policies, and guidance.
   •   Examined system certification and accreditation packages, including system risk
       assessments, security plans, security assessment results, contingency plans, and plans of
       action and milestones.
   •   Conducted operating system, database, and web application security testing for the select
       systems we reviewed.
   •   Reviewed security controls for two of GSA’s public social media websites.
   •   Reviewed publicly released documents and GSA policies and procedures related to
       labeling of sensitive security documents.

We conducted this performance audit in accordance with generally accepted government
auditing standards between January and August of 2011. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                               A-1
 FY 2011 OFFICE OF INSPECTOR GENERAL
  FISMA AUDIT OF GSA’S INFORMATION
   TECHNOLOGY SECURITY PROGRAM
   REPORT NUMBER A110160/O/F/F11008

APPENDIX B – MANAGEMENT COMMENTS




                 B-1
                                 FY 2011 OFFICE OF INSPECTOR GENERAL
                                  FISMA AUDIT OF GSA’S INFORMATION
                                   TECHNOLOGY SECURITY PROGRAM
                                   REPORT NUMBER A110160/O/F/F11008

                              APPENDIX C – REPORT DISTRIBUTION

                                                                                                                         Copies*
GSA Chief Information Officer (I) ............................................................................................ 1
Senior Agency Information Security Officer (IS) ..................................................................... 1
Director, GAO and IG Audit Response Branch (BCBB) .......................................................... 1
Assistant Inspector General for Auditing (JA) .......................................................................... 1
Director, Audit Planning, Policy, and Operations Staff (JAO).................................................. 1
Deputy Assistant Inspector General for Investigations (JID) .................................................... 1

*Provided Electronically




                                                               C-1
